October 8, 2008

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT: Audit Report – Electronic Travel Voucher System Controls
         (Report Number IS-AR-09-001)

This report presents the results of our self-initiated audit of the Electronic Travel
Voucher System (ETVS) and associated business processes (Project Number
08RG015IS000). Our objectives were to determine whether manual and automated
controls associated with the ETVS adequately support the approval of travel expenses,
and we assessed the potential for business process improvement as well as the
integrity of ETVS data in existing reporting databases. For the 16-month period
February 1, 2007, through May 31, 2008, the ETVS application processed and paid
826,604 travel expense vouchers with an approved amount totaling $256,029,040.
Hotel expenses totaled more than $66 million, or 26 percent of the total travel
expenditures for the 16-month period. See Appendix A for additional information about
this audit.

Conclusion

Overall, the manual and automated controls associated with the ETVS adequately
support approval of travel expenses other than lodging. We concluded that
management can improve the controls and clarify the policy associated with the
approval of lodging expenses. In addition, we verified that the data in the reporting
database and production database are consistent.

Travel and Relocation Policy

The Postal Service travel and relocation policy1 does not consistently communicate the
requirement to use government lodging rates2 nor does it require travelers to obtain
prior approval for, and subsequently justify and document the reason for, exceeding the
prevailing rate on the electronic voucher. Management was not aware that the policy
does not consistently direct travelers to use the prevailing government lodging rate and
saw no reason to require prior approval and justification to exceed the rate. Rather,

1
  Postal Service Handbook F-15, Travel and Relocation, Section 6, Arranging Lodging, dated February 2004, updated
with Postal Bulletin revisions through November 8, 2007.
2
  Refer to government per diem rate tables at http://www.gsa.gov.
Electronic Travel Voucher System Controls                                                     IS-AR-09-001


management places sole reliance on the approving official’s discretion to determine
reasonable cost.

Although the Postal Service travel and relocation policy explicitly directs travelers to use
the government rate with respect to lodging, it does not consistently reference or direct
adherence to government lodging rates. Specifically, Section 43 states, “Always use
government rates for transportation and lodging. Your approving official must concur
with your travel arrangements.” In contrast, Section 6,4 Arranging Lodging, states the
traveler “must make a diligent effort to obtain lodging at a reasonable rate” and refers to
the terms reasonable and exorbitant rates with no adequate definition of either. By
implementing consistent guidance, the Postal Service may positively affect its ability to
plan for and control lodging costs.

We recommend the Vice President, Controller, direct the Manager, Accounting Policy,
to:

1. Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to
   arrange for lodging at the prevailing government lodging rate whenever practical.

2. Revise Postal Service Handbook F-15, Travel and Relocation, to require travelers to
   obtain prior approval and justify exceeding the government lodging rate within the
   notes on the electronic voucher.

Management’s Comments

Regarding recommendation 1, management agreed that travelers should arrange
lodging at the prevailing government lodging rates whenever possible, but disagreed
with revising Handbook F-15 to make this an explicit requirement. Management cited
factors such as safety, additional transportation costs, unavailability of government
lodging rates, and travel time as valid business considerations that must be balanced
with cost.

Title 39, U.S.C, Section 410, gives the Postal Service the authority to establish its own
travel policy. Travelers are expected to plan their travel based on Handbook F-15,
Section 2-1, Your Responsibilities as a Traveler, which directs the traveler to plan their
itinerary with a minimum investment of time and expense. Management believes the
language is sufficient to inform travelers of their responsibilities to minimize costs
whenever feasible.

Management will issue a communication to emphasize the requirements to control
lodging expenses. Management will also review and consider modifications to the
language in the handbook to encourage or recommend that lodging be booked at the

3
    Handbook F-15, Section 4, Preparing to Travel, Subsection 4-1.1.2, How to Get Approval.
4
    Handbook F-15, Section 6, Arranging Lodging, Subsection 6-1, Your Responsibilities.




                                                           2
Electronic Travel Voucher System Controls                                IS-AR-09-001


government rate. Management will complete these actions no later than Quarter 2 of
fiscal year (FY) 2009.

Management stated that they disagreed with recommendation 2 and that Postal Service
travel policy does not require travelers to adhere to the government lodging rate, but
rather to arrange their travel with a minimum investment of travel time and expense to
the Postal Service. Also, management stated that it places additional responsibility on
the approving official to fully assess the cost of lodging, and that the approving official’s
authorization of the travel voucher is an acknowledgement that the lodging rate claimed
is reasonable under the circumstances. Management believes that an additional
notation in the voucher notes is unnecessary. Management proposed alternative action
and stated they will reemphasize these requirements in a communication issued no
later than Quarter 2 of FY 2009.

See Appendix B for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments partially responsive to recommendation 1, but management’s corrective
actions will not resolve the issues identified in the report. We agree that factors such as
safety, additional transportation costs, unavailability of government lodging rates, and
travel time are valid business considerations the traveler and approving official must
balance against cost when arranging for lodging at the prevailing government rate.

Our recommendation represents a reasonable synchronization of the language in
Handbook F-15 to better communicate to the traveler and approving official the
expectation to use the prevailing government rate in their attempt to minimize travel
costs. We do not believe that alternative methods will emphasize the requirements to
control lodging expenses more effectively than revising current travel and relocation
policy to clearly and consistently communicate the requirement to obtain lodging at or
below the prevailing government rate.

The OIG does not consider management’s comments responsive to recommendation 2
and management’s corrective actions will not resolve the issues identified in the report.
In their response, management did not acknowledge that Handbook F-15 requires the
traveler to use the government rate for transportation and lodging. Section 4 of the
Handbook, Preparing to Travel, explicitly states, “Always use government rates for
transportation and lodging.”

We agree that the approving official is responsible to fully assess the cost of lodging.
However, we do not agree that the approving official’s authorization of the travel
voucher represents an acknowledgement that the lodging rate claimed is reasonable
because there is no control in place to prevent an approving official from approving




                                              3
Electronic Travel Voucher System Controls                                IS-AR-09-001


unreasonable, unsupported, or unjustified lodging expenses. In addition, the travel
policy is not clear about what constitutes a “reasonable rate.”

Further, Management Instruction 640-204-1, Government-Issued, Individually Billed
Travel Charge Cards, dated June 1, 2005, explicitly states, “Employees are liable for
official travel expenses that exceed government rates.” In addition, the Information
Technology Administrative Guide dated March 2007 explicitly states that “Employees —
regardless of what type of credit card they use — are liable for official travel expenses
exceeding government rates.” These statements, in addition to Handbook F-15,
Section 4, clearly reflect that the Postal Service requires the use of the government rate
and even places pecuniary liability on the traveler if they exceed the government rate.

We also disagree with management’s claim that additional notation within the voucher
notes is unnecessary. Because the traveler must attempt to obtain lodging at the
prevailing government rate, a note in the electronic voucher represents the most cost
effective and least burdensome method to document justification for exceeding the rate.
In fact, we found evidence during our review that many conscientious travelers
annotated justification when they exceeded the government rate within the electronic
voucher despite the fact there is no explicit requirement to do so. We do not believe
that our recommendation places an undue burden on the traveler, but rather seeks to
make the traveler and approving official aware and more accountable for their actions.

Itemization of Lodging Expenses

The ETVS does not enforce itemization of lodging expenses. Although the application
directs the traveler to the itemization screen when inputting lodging expenses, the
traveler has the option to combine the nightly room charges or include the room rate
along with the room tax as a single entry at the itemization screen. Likewise, when
itemizing the room rate and tax, the traveler has the option of combining the two rates
by simply checking a box on the itemization screen.

The Postal Service travel and relocation policy requires the traveler to split the room
rate and taxes into two entries using the hotel expert feature of the ETVS application.
Specifically, policy states that “Itemization of hotel charges is mandatory to eliminate all
nonreimbursable (sic) charges that may be included in the lodging bill.”5 However,
ETVS allows the traveler to bypass this requirement.

Our review of 800 judgmentally selected travel vouchers processed and paid during the
16-month period February 1, 2007, through May 31, 2008, revealed that 450 (or
approximately 56 percent) of the vouchers contained non-itemized lodging expenses.
Hotel expenses totaled more than $66 million (or 26 percent of the total travel
expenditures) for the 16-month period. Because the application does not fully enforce
itemization of lodging expenses, we were unable to provide management with cost

5
    Handbook F-15, Section 6, Subsection 6-3.1, Hotels and Motels.




                                                          4
Electronic Travel Voucher System Controls                                IS-AR-09-001


savings associated with lodging expenses that exceeded the prevailing government
rate. Postal Service officials confirmed that they also possess no reasonable method to
identify the extent to which travelers exceeded the prevailing government rate or the
extent of cost savings the Postal Service might realize.

Management depends on the itemization of hotel expenses to identify and eliminate
non-reimbursable expenses. Therefore, the Postal Service may unknowingly reimburse
traveler incurred personal expenses when itemization is not enforced. In addition, the
application will inaccurately report hotel and hotel tax expenses, negate the ability to
identify nightly hotel expenses that exceed the government rate, and render the system
non-auditable with respect to lodging that exceeds the prevailing government rate.

We recommend the Vice President, Controller, direct the Manager, Finance Business
System Portfolio, to:

3. Customize the Electronic Travel Voucher System to require the traveler to input a
   value in the room tax field (even if the room tax is zero) or provide the traveler with a
   check box to indicate “taxes not applicable” in cases where the lodging stay is tax
   exempt. 

4. Customize the Electronic Travel Voucher System to remove the option to combine
   room rate and room taxes into a single entry.
Management’s Comments

Management stated they agreed with recommendation 3 and will accomplish the
itemization of room rates and taxes when the ETVS upgrade is implemented. Based on
the availability of the upgrade from the vendor and funding requirements, management
believes they can complete this by FY 2010. In the meantime, management could
create an audit rule requiring at least one itemized room tax entry for any hotel entry.
However, due to budgetary limitations, management likely will not accomplish this until
FY 2010.

Management disagreed with recommendation 4, indicating that the primary purpose for
the policy of splitting room rates and taxes into separate entries was for possible future
tax reclamation. It was not intended to enable the evaluation of room rates relative to
General Services Administration (GSA) lodging rates. Management will address this
recommendation via an available feature in the anticipated upgrade to ETVS in FY
2010. In the meantime, management will issue a communication to emphasize the
policy of separating the room rate and room taxes no later than Quarter 2 of FY 2009.

Subsequent to the receipt of management’s written comments, we had additional
discussions with management and confirmed that they agreed with this
recommendation and plan to implement compensating controls in anticipation that a
future revision to the application will address this recommendation in FY 2010.




                                             5
Electronic Travel Voucher System Controls                              IS-AR-09-001


Management also agreed that although Handbook F-15 requires the traveler to split the
room rate and taxes into two entries, ETVS allows the traveler to circumvent the
requirement.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 3 and 4
and management’s corrective actions should resolve the issues identified in the report.
In over half of the vouchers we reviewed, we found that travelers combined the room
rate and room tax, which caused the hotel expense to be overstated and the hotel tax
expense to be understated. Our analysis proved that combining the room rate and
room tax negatively affected the integrity of the data, prevented the OIG from effectively
identifying lodging transactions that exceed the prevailing government rate, and
prevented management from effectively identifying and potentially reclaiming hotel tax.

Government Lodging Rate

The ETVS does not facilitate the identification of nightly lodging stays where the actual
lodging expense exceeds the prevailing government lodging rate. The application is not
customized to look up the government lodging rate and, subsequently, enforce a flag in
instances where the actual nightly lodging expense exceeds the government rate. As a
result, lodging expense is not auditable with respect to hotel rates that exceed the
government lodging rate.

We recommend the Vice President, Controller, direct the Manager, Finance Business
System Portfolio, to:

5. Perform a formal cost-benefit analysis to determine whether it is feasible to
   customize the Electronic Travel Voucher System to:

       •   Compare actual nightly hotel expense to the prevailing government rate.
       •   Flag instances where the nightly lodging rate exceeds the prevailing
           government rate.
       •   Provide the traveler with a reminder to justify exceeding the rate.

Management’s Comments

Management stated they disagreed with the recommendation to customize the ETVS
package and will not conduct the recommended cost-benefit analysis. Management
believes the recommended audit rules are not required since use of the prevailing
government rate is not Postal Service policy. Management believes they can control
the lodging rate by reminding the travelers and approvers of their roles and
responsibilities.




                                            6
Electronic Travel Voucher System Controls                              IS-AR-09-001


Evaluation of Management’s Comments

The OIG does not consider management’s comments responsive to the
recommendation. Since management plans no corrective action, the issues we
identified in the report will not be resolved. We did not recommend that management
customize the ETVS package. Rather, we recommended that management perform a
cost-benefit analysis to explore specific customization to the application that might
provide the Postal Service with opportunities to improve application controls and reduce
lodging expenses that totaled more than $66 million during the period February 1, 2007,
through May 31, 2008. Management disagreed with the recommendation primarily
because they claim the Postal Service does not require the use of the government
lodging rate. We provided sufficient evidence in our evaluation of management’s
comments to recommendations 1 and 2 that proves the Postal Service, as a matter of
both policy and practice, requires the use of the government lodging rate. Handbook F-
15, Section 4, Preparing to Travel, explicitly states, “Always use government rates for
transportation and lodging.”

Updates to Master Per Diem Table

The ETVS master per diem table does not reflect the prevailing government Meal and
Incidental Expenses (M&IE) for rates that change during the year. Postal Service
officials do not currently direct the vendor to update the ETVS master per diem table to
reflect mid-year GSA M&IE rate fluctuations or additions of high-cost areas. According
to Postal Service officials, the Postal Service uses the GSA rates as a guide, not a rule,
and only uses GSA M&IE rates in effect at the beginning of the fiscal year.
Management also remarked, but we could not corroborate, that they do not direct mid-
year updates to the table to avoid the cost of making modifications and to prevent
additional budgetary complications.

As stated in Handbook F-15, Title 39, Section 410 of the U.S.C. gives the Postal
Service the authority to establish its own travel policy. Handbook F-15 represents
current Postal Service travel and relocation policy, which is based on elements of the
GSA Federal Travel Regulation. The Postal Service, as a matter of practice, uses
prevailing government rates with respect to expense categories that include lodging,
M&IE, transportation, and mileage rates. Section 6 of Handbook F-15 directs the
traveler to the current M&IE rates in Appendix A. Because managers do not direct mid-
year updates to the table, the appendix does not represent the most current government
rates effective throughout the year. As a result, the Postal Service risks some degree of
liability to the traveler by giving the appearance that it consistently and accurately
adheres to current GSA rates when, in fact, it may not be.

We recommend the Vice President, Controller, direct the Manager, Finance Business
System Portfolio, to:




                                             7
Electronic Travel Voucher System Controls                             IS-AR-09-001


6. Update the Electronic Travel Voucher System master per diem table and Appendix
   A, Handbook F-15, Travel and Relocation, to reflect mid-year government rate
   fluctuations as well as the addition and deletion of average-cost and high-cost areas.
Management’s Comments

Management stated they disagreed with the recommendation to reflect mid-year
government changes to their M&IE rate. They further stated that the Postal Service
uses the government M&IE rate only as a guide. Since Postal Service policy is not to
make changes at mid-year, adding audit rules to map the Postal Service M&IE rate to
the prevailing government M&IE rate would risk misinterpretation by the traveler that
management consistently adheres to current GSA rates when, in fact, this is not Postal
Service policy. The Postal Service has the authority to set its own travel policy and
procedures. This policy is to update the M&IE allowance at the beginning of the fiscal
year and occasionally when unique circumstances occur.

Evaluation of Management’s Comments

The OIG does not consider management’s comments responsive to the
recommendation. Since management plans no corrective action, the issues we
identified in the report will not be resolved. We disagree with management’s claim that
the Postal Service uses the government M&IE rate only as a guide and dispute the
assertion that travelers are not already under the impression that the Postal Service
uses the government M&IE rate as a matter of practice. We are aware that the Postal
Service implements the GSA established M&IE rates effective at the beginning of the
fiscal year and adjusts the rate in unique circumstances. We also agree that the Postal
Service has the authority to set its own travel policy. However, we could not
corroborate management’s statement or identify specific policy that reflects
management’s position.

OTHER ITEMS OF INTEREST

Standard Mileage Rates

We verified that management updated the application to calculate Privately Owned
Vehicle reimbursements using the current mileage rate increase effective July 1, 2008,
to 58.5 cents per mile. We also confirmed that mileage entries dated prior to
July 1, 2008, were calculated using the 50.5 cents per mile rate.




                                            8
Electronic Travel Voucher System Controls                                               IS-AR-09-001


Conflicting Travel and Relocation Policy

We identified notable conflicting statements within Postal Service policy associated with
the business rules concerning whether or not the traveler should reduce the per diem
rate when meals are provided. For example, Handbook F-15, Section 7,6 reminds the
traveler to reduce the per diem rate for any meals received at no cost or a nominal fee
and explicitly states that complimentary breakfasts are not claimed as a meal reduction.
In contrast, Section 87 reminds the traveler to reduce per diem by an appropriate
amount if their place of lodging provides any meal at no cost or for a nominal fee.

The OIG considers recommendations 1, 2, 3, 4, and 5 significant, and therefore requires
OIG concurrence before closure. Although management disagreed with
recommendations 1, 2, and 5, they proposed alternative actions for recommendations 1
and 2. Since we do not intend to pursue these recommendations through audit
resolution, recommendation 5 may be closed with the issuance of this report. The OIG
requests written confirmation when corrective actions are completed for
recommendations 1 through 4. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Gary C. Rippie, Director,
Information Systems, or me at (703) 248-2100.

      E-Signed by Tammy Whitcomb
    VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Ross Philo
    H. Glen Walker
    George W. Wright
    Stephen Nickerson
    Gladys Zamora
    Hadi Alsegaf
    Katherine S. Banks

6
    Handbook F-15, Section 7-4.2.1.2, When Traveling Between Average and High-Cost Areas.
7
    Handbook F-15, Section 8-2.2.2, Documenting Lodging.




                                                        9
Electronic Travel Voucher System Controls                                                                  IS-AR-09-001



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

ETVS is a web-based travel expense voucher management system based on a
commercial off-the-shelf product developed by Concur Technologies, Incorporated, and
maintained by a third-party vendor. The system is business-controlled critical and
sensitive. ETVS facilitates the collection, verification, approval, tracking, auditing, and
payment of travel expenses.

For the 16-month period February 1, 2007, through May 31, 2008, the ETVS application
processed and paid 826,604 travel expense vouchers comprised of 4,432,905 expense
records with approved amount totaling $256,029,040. The top four expenses comprise
90 percent of the total approved amount.

                                                                                       Percent of
                                                 Count of           Approved           Approved
                       Expense Type            Expense Type          Amount             Amount
                    POV8 Mileage                   2,465,795        $76,506,090                30
                    Hotel                            617,152         66,275,067                26
                    Airfare                          185,649         43,285,274                17
                    Per Diem (M&IE)                  269,807         43,230,789                17
                    Other9                           894,502         26,731,820                10
                    Total                          4,432,905       $256,029,040               100

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether manual and automated controls associated
with the ETVS adequately support the approval of travel expenses. In addition, we
assessed the potential for business process improvement as well as the integrity of
ETVS data in existing reporting databases.

To accomplish our objectives, we used computer assisted audit tools to manipulate and
analyze 4,432,905 travel expense records approved and paid during the 16-month
period February 1, 2007, through May 31, 2008. We also reviewed current Postal
Service travel and relocation policy, interviewed officials, and generated test vouchers
within the system to challenge selected application controls. However, we did not
review the controls associated with travel related refunds.

To test the integrity of the data in the reporting databases we reconciled data from the
ETVS reporting database and production databases for the 3-month period October 1
through December 31, 2007. To identify the potential for business process

8
  Privately Owned Vehicle.
9
  The ‘Other’ category is comprised of 23 additional expense types including, but not limited to, car rental, parking
fees, and rent.




                                                           11
Electronic Travel Voucher System Controls                                      IS-AR-09-001



improvement we interviewed Postal Service officials and scrutinized selected aspects of
the business processes associated with the delivery and storage of travel expense
vouchers and supporting documents.

We conducted this performance audit from June through October 2008 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We assessed the reliability of
the computer-generated data we used to support our conclusions and determined the
data is sufficiently reliable to meet our objectives. However, we determined that ETVS
lodging data is not useful to support a review of lodging rates that exceed the prevailing
government rate. We discussed our observations and conclusions with management
officials during the audit and on September 9, 2008, and included their comments where
appropriate.




                                            12
       Electronic Travel Voucher System Controls                                          IS-AR-09-001




       PRIOR AUDIT COVERAGE

                             Report            Final Report     Monetary
    Report Title             Number                Date          Impact            Report Results
Security Vulnerability     IS-AR-08-012     June 25, 2008       None        The scans performed during this
Assessment of the                                                           security vulnerability assessment
Electronic Travel                                                           identified security vulnerabilities
Voucher System                                                              and inconsistencies with Postal
                                                                            Service security requirements on
                                                                            the ETVS production servers and
                                                                            database server tested. Identified
                                                                            vulnerabilities included patch
                                                                            management, password
                                                                            management, data encryption,
                                                                            and key management.
Postal Service Officers’   FT-AR-07-005     December 7, 2006    None       The audit disclosed that, based on
Travel and                                                                 sample results, these expenses
Representation                                                             were properly supported and
Expenses for Fiscal                                                        complied with Postal Service
Year 2006                                                                  policies and procedures.
Postal Service Board of    FT-AR-08-008     February 15, 2008   None       Travel and miscellaneous
Governors’ Travel and                                                      expenses totaling approximately
Miscellaneous                                                              $92,600 and external professional
Expenses for Fiscal                                                        fees totaling approximately $1,300
Year 2007                                                                  were properly supported and
                                                                           complied with Board of Governors
                                                                           policies. However, management
                                                                           did not always comply with Postal
                                                                           Service policies and procedures
                                                                           pertaining to the approval and
                                                                           verification of Governors’ travel
                                                                           vouchers.
Postal Service Officers’   FT-AR-08-004     December 20, 2007   None       Based on the sample results,
Travel and                                                                 officers’ travel and representation
Representation                                                             expenses totaling approximately
Expenses for Fiscal                                                        $880,000 were properly supported
Year 2007                                                                  and complied with Postal Service
                                                                           policies and procedures.




                                                       13
Electronic Travel Voucher System Controls                  IS-AR-09-001



                       APPENDIX B: MANAGEMENT’S COMMENTS




                                            14
Electronic Travel Voucher System Controls        IS-AR-09-001




                                            15
Electronic Travel Voucher System Controls        IS-AR-09-001




                                            16
Electronic Travel Voucher System Controls        IS-AR-09-001




                                            17
